PROOF OF SERVICE
COURT NAME:

In the Supreme Court of the United States

CASE NUMBER:

20-484

CASE NAME:

Patricia Woods v. Robert Storms, et al.

I declare that I am a resident of or employed in the County of Sacramento,
State of California. I am over the age of 18 and not a party to the within entitled
cause. I am an employee of the Public Employment Relations Board, 103118th
Street, Sacramento, California 95811 .
·On October 22, 2020, I served the Waiver regarding the above-referenced
case on the parties listed below:
Patricia Woods
P .O. Box 96444
Las Vegas, NV 89193
Petitioner, Pro Se

[X]

Kristin M. Daily, Supervising Deputy
Attorney General
Office of the Attorney General, State of California
1300 I Street, Ste. 125
P.O. Box 944255
Sacramento, CA 94244
Attorney for Respondents California Department of
Corrections and Rehabilitation, Robert Storms,
Larry Norris

(BY UNITED STATES MAIL) I enclosed the document(s) in a sealed
envelope or package addressed to the person(s) at the address(es) above and
placed the envelope for collection and mailing, following our ordinary
business practices. I am readily familiar with this business's practice for
collecting and processing correspondence for mailing. On the same day that
correspondence is placed for collection and mailing, it is deposited in the
ordinary course of business with the United States Postal Service, in a
sealed envelope with postage fully prepaid. The envelope or package was
placed in the mail at Sacramento, California.

I declare under penalty of perjury of the laws of the State of California that
the foregoing is true and correct and that this declaration was executed on October
22, 2020 at Sacramento, California.
S. Taylor
(Type or print name)

